<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                     JOE SKEEN, New Mexico, Chairman
 RALPH REGULA, Ohio                  NORMAN D. DICKS, Washington
 JIM KOLBE, Arizona                  JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           MARTIN OLAV SABO, Minnesota 
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                     
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants
                                ________
                                 PART 9
                             INDIAN PROGRAMS
                                                                   Page
 Bureau of Indian Affairs.........................................    1
 Special Trustee for American Indians, Trust Reform...............   59
 Indian Health Service............................................  137
 Office of Navajo and Hopi Indian Relocation......................  199

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-686                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Thursday, March 14, 2002.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

NEAL A. McCALEB, ASSISTANT SECRETARY--INDIAN AFFAIRS
JOHN TREZISE, DIRECTOR OF BUDGET
WAYNE SMITH, DEPUTY ASSISTANT SECRETARY--INDIAN AFFAIRS
JIM McDIVITT, DEPUTY ASSISTANT SECRETARY (MANAGEMENT)

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Let me welcome the Assistant Secretary for 
Indian Affairs, Neal McCaleb, who will discuss the Bureau of 
Indian Affairs fiscal year 2003 budget request.
    As you know, I have been a long and strong advocate for 
those programs in your Bureau that are designed to improve the 
lives of people in Indian Country. And because of this personal 
involvement, I look forward to hearing about this year's budget 
request.

                    Opening Statement of Mr. McCaleb

    Mr. McCaleb. Thank you, Mr. Chairman, very much. I am 
delighted to be here and I appreciate the opportunity. My name 
is Neal McCaleb, Assistant Secretary for Indian Affairs in the 
Department of the Interior.
    Just a brief word, I am sure you are aware of this, about 
the program sphere of the Bureau of Indian Affairs. We serve 
over 1.4 million Native Americans located in 33 States who are 
members of 559 tribes. We provide a variety of local government 
services through the tribes, such as education, law enforcement 
and detention, social services, roads, and trust resource 
management, as you just heard in the previous testimony.
    The allocation of our funds I think are noteworthy. Some 90 
percent of all the funds appropriated to the Bureau of Indian 
Affairs are spent locally, either in schools, through tribal 
governments, the local agency or the regional offices. Fifty-
four percent of all of our appropriated money goes direct to 
the tribes in the form of 638 contracts or self-governance 
contracts. Only 8 percent is actually administrative expense, 
that is, Bureau-wide.
    The needs and the demands are well known. Poverty in Indian 
Country on reservations is 33 percent, unemployment is 40 
percent. That gives rise to a number of social pathologies such 
as alcoholism and violent crime and also behavioral patterns 
that impair health.
    The budget we have proposed is a $2.3 billion budget, which 
is an incremental increase of $46 million. Of that, $22.9 
million is for the civil service retirement system that is 
allocated direct to the Department. We actually have about 
$22.9 million in actual programmatic funds for an incremental 
increase. Now the $2.3 billion does not include some off-budget 
funding, such as the road system which is funded entirely out 
of Federal Highway Trust Funds. In fiscal year 2002, it is $264 
million. We also have some Department of Education off-budget 
funding in the order of about $132 million last year, and some 
lesser amounts, such as wildland fire management of $20 
million.
    Our budget emphasis or priorities for the fiscal year 2003 
budget is clearly in education. We have $562 million of our 
total budget set aside for education. That is a programmatic 
increase of about $18 million, $11.9 million of which is for 
some demonstration projects for privatization of Bureau 
schools. Another $3 million is for the Family and Early 
Childhood Development Program for seven new programs, which has 
been very successful.
    Our construction program is again at close to the $300 
million level, about $292 million. Of that, $125 million is for 
school replacement, and $164 million is for facilities 
improvement and repair, and a small amount, $3 million, for 
housing. I would share with you this graph that shows the 
dramatic jump in our school construction. In fiscal year 2000, 
our total budget for new construction was about $64 million, 
the following year it was $130 million, and then in fiscal year 
2002 it was $191 million. You can see this dramatic jump up to 
try to grind down the backlog.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Skeen. You got it up there.
    Mr. McCaleb. That is right. And this Administration 
continues our support to eliminate the backlog of inadequate 
and unsafe schools for Indian children. We have committed $292 
million in this budget for that purpose.
    Our Tribal Priority Allocations is another major portion of 
our budget, about 34 percent, and it is $523 million, which is 
an incremental increase of about $17 million. And as indicated 
earlier, the BIA's trust improvement incremental increase is 
about $34 million. We have a new element in our budget this 
time which is an element forenergy development. We have a 
modest amount of $2 million but it is kind of seed money for the 
purpose of assisting the tribes in developing their underdeveloped and 
undeveloped energy resources on tribal lands to help solve the national 
energy issues.
    Mr. Chairman, I am going to submit a written statement in 
total. And I think at this point that I would like to try to 
respond to any questions that you might have.
    [The written statement of Mr. McCaleb follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Skeen. Appreciate it.
    Mr. Dicks?
    Mr. Dicks. I do not have a statement, Mr. Chairman. I just 
want to welcome Neal. Glad you are on board. We have a number 
of important issues facing the Department and your office and I 
look forward to working with you.
    Mr. McCaleb. I look forward to the opportunity, 
Congressman.
    Mr. Skeen. Let me go over this with you. Your budget 
request proposes to zero out all congressional priorities 
including those that you have incorporated as part of the 
Bureau's base program for years. Why are you now proposing to 
eliminate such programs?

                    POST-SECONDARY SCHOOL REDUCTIONS

    Mr. McCaleb. Well, I think some of the programs that you 
make reference to are the post-secondary programs, such as 
United Sioux Technical Training School, and we reduced $2 
million in tribal colleges, as an example. That was a matter of 
prioritization. The environment that we are in, as I said, we 
had a modest increase in our budget but in order to do that we 
had to reduce some things also. And in education----
    Mr. Skeen. Tough game.
    Mr. McCaleb. Yes, sir, it is. I had not realized until I 
waded through this budget how really difficult the decisions 
are that have to be made. And I do not envy you and the other 
Congressmen in your job of making the final decision on that.
    Mr. Skeen. It is folks like you that give us a shield.
    Mr. McCaleb. Thank you. But our assessment is that when you 
have a limited amount of resources, that money is best spent at 
the primary and secondary educational level, and really earlier 
than that, in the pre-school level. That is why we have made a 
commitment of $3 million to the Family and Early Childhood 
Development Program for seven new programs. That money gives 
our students a better chance of success not only in the 
secondary schools but in the post-secondary schools. We feel 
that if we have got to make some hard decisions we would rather 
focus our resources in that area, and that is what this budget 
reflects.
    Mr. Skeen. Is there such a response too for diabetics?
    Mr. McCaleb. Well, the primary responsibility for 
alleviation of the diabetic problem is with the Indian Health 
Service, of course, but we are very sensitive to that. That is 
one of the behavioral problems that result from poverty and a 
bad economy I think in many ways, and we are going to try to 
address ourselves directly to economic development in this 
Administration.

                          SCHOOL PRIVATIZATON

    Mr. Skeen. As part of your school initiative, do you have a 
policy preference whether to privatize schools via grants to 
tribes and tribal organizations or via contracts with for 
profit education management companies?
    Mr. McCaleb. It is our intention to continue the Indian 
preference policy, whether we are contracting with local Indian 
school boards or tribes or with third party outside contractors 
for privatization.
    Mr. Skeen. When was this developed?
    Mr. McCaleb. The initiative has been developed in the last 
six months pursuant to a number of studies that have been done. 
In fact, the Government Accounting Office did a fairly critical 
report on the Indian education program within the Bureau this 
last year.
    Mr. Skeen. So it has been a long established----
    Mr. McCaleb. Privatization is not. This is a new initiative 
for us. But the imperative for it has been focused on by the 
General Accounting Office as well as our own records. Our 
students are not performing in terms of the proficiency 
standards that we have set for ourselves and that are evident 
in other public school systems. And so the privatization is 
just another choice that we are trying to add to the local 
school board so that they can make a decision about whether or 
not that works for them. It is a demonstration project in this 
budget. The $11.9 million is a fairly limited demonstration 
project for a couple, maybe three schools.
    Mr. Skeen. Mr. Dicks?

                           EDUCATION SPENDING

    Mr. Dicks. Thank you, Mr. Chairman. On the spending on 
education program, funding for the BIA education, excluding 
construction, increases by 3 percent this year. This is about 
enough to cover inflation. The increase for elementary and 
secondary education in the Department of Education in fiscal 
year 2002 was $3.2 billion, or nearly 18 percent increase. The 
President again asked for a 3 percent increase in 2003 for 
Indians.
    Mr. McCaleb, notwithstanding the rhetoric, are Indians 
being left out of the ``no child left behind'' policy of this 
Administration?
    Mr. McCaleb. No, Congressman, I do not think so at all. 
There are two basic elements. One is the facilities in which 
their education is delivered, the other is the program. There 
is abundant evidence of the inadequate facilities for Indian 
schools and Indian students. This is a little graph that I had 
showed earlier which shows the spike in spending for facility 
improvement and repair as well as the replacement of schools. 
It has jumped from about $64 to almost $300 million in the last 
five years, and in the last three years it has jumped from $130 
million to $292 million. I think that is a dramatic increase in 
commitment on the part of the President and the Administration, 
a commitment to Indian education which he has personally made.
    [The information follows:]
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Dicks. I am told though that the increases were inthe 
previous Administration. That there, in fact, is not an increase in 
fiscal year 2003.
    Mr. McCaleb. Well, as you can see, we are sustaining that. 
The jump came in fiscal year 2001 and we have sustained that 
increase at dramatically higher rates than the historic 
expenditures in the Bureau of Indian Affairs.
    Mr. Dicks. Is this both for building new facilities and 
repairing existing facilities?
    Mr. McCaleb. Yes. The red on this graph represents 
improvement and repair, and the blue is replacement schools or 
new schools.

                     EDUCATION CONSTRUCTION BACKLOG

    Mr. Dicks. Let me ask you this, even at those levels, are 
there still a large number of unmet needs out there?
    Mr. McCaleb. We do have a backlog of----
    Mr. Dicks. What is your backlog?
    Mr. McCaleb. At this point, it is about $700 million worth.
    Mr. Dicks. Total?
    Mr. McCaleb. Yes.
    Mr. Dicks. Now is that for new construction or is that for 
repair?
    Mr. McCaleb. Both.
    Mr. Dicks. Could you break out the two for the record?
    Mr. McCaleb. Yes.
    Mr. Dicks. Good. Just give us that for the record.
    [The information follows:]

Education Construction Backlog as of September 2001

Total...................................................  $1,067,674,855
Deferred Maintenance (With Quarters)....................     697,697,769
Deferred Maintenance (Without Quarters).................     533,957,027
Capital Improvements....................................     369,977,086

    Of the total denoted above, the backlog for Education 
Facilities and Improvement (with quarters) is $697,697,769.

                           SCHOOL OPERATIONS

    Mr. Dicks. We see all these increases. You know, the trust 
thing is something you are going to have to do because of the 
lawsuit. So I am not going to beat up on you too much on that. 
But I hate to see it be done at the expense of education. It 
seems to me that if we as a Congress and the President agree to 
increase funding for elementary and secondary, that the tribes 
should get a similar increase. I know it is two separate 
departments, Department of Education and Department of the 
Interior, but it seems that the tribes are probably the 
neediest in the country in terms of needing the money to 
conduct the program.
    Now you make the point that construction is up. But how 
much are we spending? What is the amount of money we are 
spending on operations of the existing schools just on 
education generally. I know that sometimes we pay to have--we 
have some schools that we own and operate and other schools 
that children attend and then there is some reimbursement.
    Mr. McCaleb. The operations of the schools, exclusive of 
the construction program, is $562 million in this proposed 
budget, which represents 24.4 percent of our total budget.
    Mr. Dicks. What was it last year, just out of curiosity?
    Mr. McCaleb. It was $18 million less. That would be $548 
million.
    Mr. Dicks. So that is a 3 percent increase that is just 
covered by inflation.
    Mr. McCaleb. We are actually proposing some new 
initiatives, Congressman. Like $3 million for the Family and 
Child Education, early----
    Mr. Dicks. Early childhood education. How much do we spend 
on that?
    Mr. McCaleb. Three million dollars. And $11.9 million for 
our proposed initiative on privatization.
    [The information follows:]

    Correction: Three million dollars is requested in the FY 
2003 President's Budget to expand the FACE program component 
under the Early Childhood Development line item. For FY 2002, 
the FACE program is funded at $9,291,000. The second program 
component of the Early Childhood Development program, the 
Therapeutic Residential Model (TRM), is funded at $2,919,000 in 
FY 2002.

    Mr. Dicks. Tell us about that. What is that all about?

                          SCHOOL PRIVATIZATION

    Mr. McCaleb. Well, that is proposed to be a demonstration 
project in two or maybe three schools to increase the options 
or the choices that are available to the local school boards. 
As I said, the GAO has made fairly clear the shortcomings of 
the achievement tests of the students in the Bureau of Indian 
Affairs and we want to explore the possibility of enhancing 
that, very similar to the way that privatization has helped the 
achievement scores of the students here in the District of 
Columbia. But that is an option that we have available. We have 
not done our consultation with the tribes yet and we are just 
in the process of beginning that.
    Mr. Dicks. What are you trying to do besides privatization 
to improve the performance of the children in the schools?

                                  FACE

    Mr. McCaleb. The FACE program clearly is a need, so that 
when the students come to school they are better prepared. We 
have found that the FACE program, or the Early Childhood 
Development program, is yielding very high dividends in terms 
of their achievement in their first three years of school where 
those programs exist. Also, this program is going to move 
towards an accreditation of all of the BIA-funded schools. That 
is an objective. We are not accredited right now.

                              OUTSOURCING

    Mr. Dicks. How have the tribes responded to your request to 
outsource the remaining 64 Bureau-operated schools?
    Mr. McCaleb. I would say that their response has been a 
wait and see. We have not started our consultation process yet. 
We were proposing seven different regional consultations 
throughout Indian Country that will begin the middle of next 
month. I think the tribal leadership has been very deliberate 
or thoughtful and waited to see the program as presented to 
them. We will certainly give great credence to any suggestions 
that are made by the tribal leadership in the consultation 
process.
    Mr. Dicks. It looks like all of the increases proposed in 
your request for school operations are tied to your proposal to 
contract out so-called poor performing schools. Is there no 
longer a need for additional funds for school operations based 
on comparisons with local public school systems?
    Mr. McCaleb. Actually, the GAO report makes fairly clear 
that we are spending a higher rate per student in many cases in 
teacher compensation than the local public schools. That is one 
of the criticisms that was in the GAO report. I guess what I am 
saying is that I read the criticism as we are not getting 
enough bang for our buck.
    Mr. Dicks. The Subcommittee understands that the new school 
privatization initiative, which you have just mentioned, 
includes the payment of financial incentives to outside 
contractors if they achieve student goals. Is that accurate?
    Mr. McCaleb. That is a proposal that we will consult with 
the tribal leadership about, the idea being that we pay for 
results.
    Mr. Dicks. What is the justification for offering such 
incentives to outside contractors only but not to tribal 
contractors and grantees?
    Mr. McCaleb. There is a disparity there. And if this works 
well with the outsourcing to private contractors, I am sure we 
will expand it to our tribal contracts. There is a disparity.
    Mr. Dicks. Just in equitable terms, that would be a great 
way to incentivize them. If you think it will work for the 
private people, maybe it will work for the----
    Mr. McCaleb. I guess the operable word here, Congressman, 
is demonstration.
    Mr. Dicks. We are demonstrating, taking a look?
    Mr. McCaleb. That is right.

                         INFORMATION TECHNOLOGY

    Mr. Dicks. Your budget request proposes an increase of $5.5 
million for information technology. Are these funds designed to 
address the computer security problems that resulted in the 
shutdown of the Bureau and Department's computer systems?
    Mr. McCaleb. Specifically, they are designed for that 
purpose. Not entirely, but the vast majority of the money is 
for that purpose.

                         LAND MANAGEMENT FUNDS

    Mr. Dicks. Your request proposes an increase of $4.5 
million for the management of lands that generate revenues. 
Exactly how would these funds be allocated between forestry, 
grazing, mineral development, and oil and gas development? You 
can do that for the record.
    Mr. McCaleb. I would like to do that for the record.
    [The information follows:]

    Under the Tribal Priority Allocations (TPA) budget 
category, an increase of $2 million is requested for 
Agriculture and an increase of $1.5 million is requested for 
Forestry as part of the BIA's overall trust improvement 
request. There is an additional request for $477,000 (as part 
of the BIA's Energy Plan request) for Natural Resources that is 
specifically for oil and gas development. Under the Regional 
Office Operations budgetary category, an increase of $1 million 
is requested for Minerals and Mining (also a component of the 
BIA's overall trust improvement request).

                         POST-SECONDARY SCHOOLS

    Mr. Dicks. Your budget speaks to a commitment by the 
Department and the Bureau to improve education in Indian 
Country and yet you are proposing to eliminate the United 
Tribes Technical College and the Crown Point Institute of 
Technology. Why would you totally eliminate funding for these 
post-secondary schools?
    Mr. McCaleb. That, again, is a matter of prioritization. 
Our judgement is that the limited funds that we have can best 
be spent in the primary and the secondary levels. That is just 
one of the hard choices we made in organizing our budget. That 
was a very difficult choice. I happen to believe in post-
secondary education. I was going to college in the mid-1950s 
studying civil engineering and ran out of money and I sold my 
legacy from my mother's allotment in order to put myself 
through college. So I have a personal commitment to that.
    Mr. Dicks. All right. It just seems to me that by having 
these schools it helps give these people an opportunity to 
compete in society and to get better jobs, as you have. I hope 
we can discuss this decision with you a little further.
    Mr. McCaleb. Yes, sir.

                           FOREST MANAGEMENT

    Mr. Dicks. On forest management, the Subcommittee remains 
concerned about the level of funding being proposed for the 
forestry program and the need to update forest management 
plans. Is there a backlog for completing forest management 
plans?
    Mr. McCaleb. Yes, there is. A lot of these have been 
contracted to the tribes themselves under 638 and self-
governance contracts. Some of them have delivered very 
excellent forest management plans and some of them have not 
been forthcoming. In many cases, the Bureau has not done its 
own forest management plan. There is a backlog. I am not trying 
to just lay this all off onto the contracting by the tribes. 
The Bureau has its own backlog.
    Mr. Dicks. For the record, give us a little rundown on the 
status of this, would you?
    Mr. McCaleb. Yes, I will.
    [The information follows:]

    There are currently a significant number of reservations 
that do not have completed forest or woodlands management 
plans. The completion rate for all timbered reservations stands 
at 46 percent. Progress is being made to reduce this backlog 
(36 percent of reservations had Forest Management Plans (FMPs) 
in 1995) within available resources. The BIA has focused 
efforts on completion of plans necessary to sustain on-going 
timber harvest activities on major forested reservations and 
has approved FMPs on 83 percent of them (40 of 48).

    Mr. Dicks. Within your request for the forestry program, 
how much money is included for forest management plans? Do you 
or one of your associates have that?
    Mr. McCaleb. I do not have that number. We will have to 
respond to the record on that.
    [The information follows:]

    In FY 2002, funds allocated by the BIA for Forest 
Management Plans is $2.14 million for forest inventory and 
management planning activities. IN FY 2003, the President's 
Request will provide approximately $2.2 million, which includes 
the related pay costs adjustments also requested in the budget.

                 NATIONAL IRONWORKERS TRAINING PROGRAM

    Mr. Dicks. The Bureau has been an advocate for promoting 
economic development in Indian Country and reducing current 
high unemployment rates. However, your budget eliminates the 
National Ironworkers Training Program which was one of the few 
programs that trained Indians for relatively high paying jobs. 
Please explain why you would eliminate such a high priority 
program.
    Mr. McCaleb. I do not have a compelling explanation other 
than the fact that this again was one of those post-secondary 
training programs that we reduced in favor of spending the 
money in primary and secondary education.

                           WELFARE ASSISTANCE

    Mr. Dicks. Your budget request proposes a $4 million 
reduction to the welfare assistance program based on the 
assertion of a reduction in eligible applicants. How is it 
possible to have a reduction in applications during a 
recession?
    Mr. McCaleb. First of all, I think the recession is felt 
fairly mildly on the reservation. There is an old song about 
the Depression and the guy in the cotton patch said we did not 
know there was a recession going on because it looked all the 
same to us.
    Mr. Dicks. Yes, right.
    Mr. McCaleb. And that is much the way it is on the 
reservation. We have had quantifiably a reduction in the number 
of applicants for assistance.
    Mr. Dicks. Do you have any outreach effort? Do people know 
about the program?
    Mr. McCaleb. Yes, we do.
    Mr. Dicks. Give us a little information on that one for the 
record, the numbers, the outreach effort, et cetera.
    Mr. McCaleb. The outreach effort is going to be a qualified 
statement rather than a quantified statement. I will get you to 
some quantity for the record. But the program is exported to 
the community through 85 different agencies that we have and 
through the tribes themselves that contract with the Bureau of 
Indian Affairs for these kinds of social services under TANF 
and other mechanisms.
    [The information follows:]

    The BIA provides program outreach through annual training 
and technical assistance to the Regions and its agencies 
concerning the Social Services program. The Regions and 
agencies, in turn, have regular meetings and training with the 
Tribes to ensure compliance with BIA regulations and other 
issues that affect the program.
    Currently, over 85 percent of the BIA Social Services 
program is contracted or compacted by over 400 Tribes. Under 
these contracts and compacts, the Tribes have the 
responsibility for the provision of services to eligible 
clients and for referral of clients to the appropriate service 
providers. Although the Welfare Assistance program provides 
financial assistance to a number of clients, it is a ``safety 
net program.'' The primary source of financial assistance are 
state, Temporary Assistance for Needy Families, or TANF 
programs. These programs are administered by states but Tribes 
have the option of contracting for this service; 35 Tribes have 
contracted for the program and provide TANF services on behalf 
of over 200 Tribes nationwide.
    Tribal TANF providers have the option of combining their 
TANF programs with the BIA's Social Services Welfare Assistance 
program into a PL 102-477 grant, which many Tribes have chosen 
to do to streamline regulatory requirements. This effort 
insures that an outreach effort is provided in the same fashion 
as a one-stop shopping concept, where clients can go to one 
location to apply for a variety of services.
    Tribes, through networking with all providers, are 
knowledgeable about local, state, and Federal sources that 
benefit Tribal members and referrals among the various sources 
occur regularly. Often, states and counties assign staff to 
serve as liaisons to Tribes to help coordinate their efforts 
and ensure that eligible Tribal members apply for needed 
services before requesting BIA services. The BIA, by 
regulation, will not supplant or duplicate primary provider 
services and is an option of last resort when no other state or 
local program is available.

                           ENDANGERED SPECIES

    Mr. Dicks. You have a line item in the budget for 
Endangered Species work that you are proposing to zero out. Are 
these resources used by the Bureau to consult with the Fish and 
Wildlife Service? If not, what are these funds used for or what 
were they used for?
    Mr. McCaleb. Congressman, I am not going to try to answer 
that. I do not know the answer. I will respond to the record.
    Mr. Dicks. Okay. That is fine.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Dicks. All I would say is that out there in the real 
world, in the Northwest, with all these Endangered Species 
listings, you have to have an ability for the BIA to consult 
with the Fish and Wildlife Service, National Marine Fishery 
Services in order to get decisions on a whole variety of 
projects. So I hope and pray that this is not money that is 
used so the Department can consult. Because if you cannot 
consult, maybe that means that the Fish and Wildlife Service 
and NMFS will just have to make the decision without input from 
the BIA. But in some of the cases I think your people would 
want to be involved.
    Mr. McCaleb. They are. In the Pacific Northwest, we 
contract a great deal of that work to the tribes themselves 
under 638 and self-governance contracts. I am advised that some 
tribal contracts apparently have been eliminated in that 
process. But we still are doing consultation with Fish and 
Wildlife and NMFS.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Moran.

                           TRIBAL RECOGNITION

    Mr. Moran. Thank you, Mr. Chairman. It is great to see you, 
it really is, and Mr. Dicks as well. I am glad that you are 
holding down the fort here. We had a defense hearing going on.
    I have got a problem in the Commonwealth of Virginia, not 
politically because it does not affect me one iota, but it isan 
issue of justice. There are eight Indian tribes in the Commonwealth of 
Virginia that were the original tribes that welcomed John Smith and the 
Jamestown settlers and so on and provided for them, took care of them. 
You could make an argument that it would have been a long time before 
the European settlers would have come back if they had not been so good 
to them. And then, of course, the settlers all wiped them out for the 
most part. But the Indians were given a deed to much of Virginia, 
signed by King George, that Chief Justice John Marshall upheld, said 
this is legal. It has never been abrogated.
    But what happened from the 1920s to the late 1940s, there 
was a guy that the Byrd Machine put into power and he was one 
of the heads of the international eugenics movement, trying to 
do what from their perspective was eliminating inferior races, 
that is what they thought they were doing. There was apparently 
correspondence with Hitler that led to Nazism and so on. This 
guy was bad. But he got laws passed in Virginia that made it 
illegal to declare yourself to be an American Indian. You would 
be imprisoned if you did. And you could not get your child out 
of a hospital unless you checked one of two boxes; one was 
``white,'' the other was ``colored.'' There was no place for 
identifying yourself as an Indian. As a result, this law made 
sure that there were no Indians because none were identified, 
and that is how they took their land.
    Now this is all history. The problem is we are trying to 
rectify it just a little bit because what is left of these 
tribes have no social security, it was illegal to be employed, 
and they could not get any education whatsoever out of the 
public school system. So they have nothing now. And they have 
nothing from the Bureau of Indian Affairs, even though they 
were some of the original tribes. I could go down the list but 
that does not matter here. We still cannot get them recognized 
as tribes. Part of the problem lies with the Bureau of Indian 
Affairs. The GAO did a study and it found all kinds of flaws in 
this process, as you very well know. Some of the applicants 
have waited up to 15 years.
    Now I would like to know from you what the Congress could 
do if it wanted to rectify this situation. Is it resources? Is 
it will? What is the problem? These people are going to be dead 
before we can secure any kind of justice for them.

                             INDIAN GAMING

    The second thing, if you want to volunteer it, does the 
Administration have any position on gambling as a source of 
revenues and economic development? These particular Indian 
tribes have all sworn that they will not engage in gambling 
whatsoever because the only people that would educate them were 
the Christian missionaries. But I would like to know what your 
approach is.

                           TRIBAL RECOGNITION

    Most importantly right now, what are you going to do about 
this process of getting recognized by the Bureau of Indian 
Affairs?
    Mr. McCaleb. Well the process involves meeting seven 
criteria, affirmatively meeting them completely, all seven. One 
of the most difficult problems, especially for the tribes on 
the East Coast that have been in contact with the European 
community here the longest, is that the tribe must demonstrate 
that it has been a continuous political body exerting some kind 
of government influence over their tribal members. And as you 
indicate, there was a systematic effort on the part of the 
State or the laws of the State to eradicate that.
    This is not unique to Virginia. Part of the policy of our 
Government was to eliminate the tribal governments. I am a 
Chickasaw Indian. My mother was allotted land in 1904 pursuant 
to the Curtis Act, and the objective there was to eliminate all 
tribally and communally held property and eradicate the tribal 
government. It pretty effectively did that until the 
establishment of self-determination in the 1970s and Public Law 
93-638 in 1975 and there was a renaissance of tribal 
government. But in Oklahoma the Chickasaws did have a 
continuous Governor that was actually Presidentially appointed. 
He was kind of like a southern colonel; he did not have much 
authority, he just had a title.
    Mr. Moran. And by this case, we actually have had 
continuity even though they were put off into rural areas where 
no one else would want to live. They understand the importance 
of maintaining this continuity of governance.
    Mr. McCaleb. If that is demonstrable, then that is one of 
the largest hurdles. One of the things that the Branch of 
Acknowledgement and Research, which is located within the 
Bureau of Indian Affairs, does is to assist the applicant that 
wants to get themselves recognized as a federally-recognized 
tribe, assist them in determining what kind of evidence that 
they must develop. They will not do it for them because they 
have to sit not really in judgment but as experts and evaluate 
each one of these seven criteria. They are staffed with 
genealogists and anthropologists and historians that look at 
this record and they make a recommendation to me, as the 
Assistant Secretary of Indian Affairs, to make a final judgment 
on.
    That process has been painfully slow and many tribes have 
been under consideration for many years. Many times that is 
because they have not submitted all the essential data to be 
under what is called active consideration. I forget the exact 
number, but we have something less than 20 applicants under 
active consideration right now. But with the staff that we 
have, we have only been able to deliver about three 
recommendations a year. So even at that, that is almost a seven 
year backlog of applicants under active consideration.
    To be blunt, we have been criticized in another Committee 
of this Congress for not having asked for more personnel to 
staff the BAR. But here again it is a matter of priorities, and 
that is what I said in that Committee and was roundly 
criticized for it. But the tribes that are recognized, we are 
struggling with their education, we are struggling with 
building enough schools, we are struggling with building enough 
roads, and a variety of other issues and----
    Mr. Moran. So it saves you money by not recognizing them.
    Mr. McCaleb. I think maybe some of the existing recognized 
tribes perceive it that way. There is kind of a fixed pot of 
stew out there and if there are more tribes there is less stew 
per tribe. Nobody vocalizes that but I think that is perceived 
as a reality. That is not what motivates us. But we clearly 
have a limited resource of personnel to do the recognition 
process.
    Mr. Moran. Who do I deal with to see if we can get a little 
justice served here?
    Mr. McCaleb. Well I would like to come up with somebody 
else's name, Congressman, but I think it is myself.

                             INDIAN GAMING

    Mr. Moran. You. Okay. Well I think maybe we ought to have a 
little meeting. Thank you. I assume there is no policy on the 
issue of gambling. It does not apply in this case but----
    Mr. McCaleb. Well, yes, there is a policy. The policy, 
first of all, is to abide by the law, the Indian Gaming and 
Regulatory Act, and we have done that. We have entered into 
approved compacts between several States and Indian tribes to 
permit gaming in this Administration. And it is based upon the 
statutes and the requirements that are in those statutes. And 
we have turned some down. We turned one down last week.

                            VIRGINIA TRIBES

    Mr. Moran. Okay. Mr. Chairman, if I could, I would like to 
submit the names of the tribes that I am referring to and get a 
status report for the record from the BIA on where they stand 
and what their prospects are. And if there are reasons why it 
has been delayed, I would like to know those reasons. Thank you 
very much, sir. Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Skeen. Thank you. Lunch time. I have had about enough 
of this. [Laughter.]
    Mr. Dicks. We are almost done, Mr. Chairman. I just want to 
ask this question just to finish this up.
    Mr. Skeen. Okay.

                               BAR BUDGET

    Mr. Dicks. How much funding is in the budget for the Branch 
of Acknowledgement and Research? With the recent high level of 
interest in the acknowledgement process, as we have heard, 
should there be a specific line item in the budget for this 
program?
    Mr. McCaleb. There is a specific, not a specific line item. 
It is embedded in Tribal Services, and it is $990,000.
    [The information follows:]

    Correction: The FY 2002 distribution of funds for the 
Branch of Acknowledgment and Recognition (BAR), adjusted for 
pay cost increases, is $1,050,000.

                           NEW TRIBES FUNDING

    Mr. Dicks. See, because of internal transfers, we 
understand the budget request shows zero funding for new 
tribes. Have all recently recognized tribes received funding 
from this program? Previously, before they were recognized?
    Mr. McCaleb. Before they were recognized, no, they do not 
receive any money until they are federally recognized.
    Mr. Dicks. Okay. Once you are recognized, then you can do 
this agreement that you do between the Department and the tribe 
and then they get a certain amount of money, right? That is 
your pot of stew you were talking about earlier. And there are 
some people who do let us know that they are opposed to letting 
others have a spoon, by the way. [Laughter.]

                       CONCERN IN INDIAN COUNTRY

    Gentlemen, we can discuss this later. What is your biggest 
concern? This is a tough job and we all are sensitive to the 
tribes. What is your biggest concern this year as you approach 
this?
    Mr. McCaleb. My biggest concern is the disparity in Indian 
County of being full participants in the prosperity of this 
great country, measured by almost any criteria. Thirty-three 
percent are below the poverty level. Over 40 percent are 
unemployed. That gives rise to a lot of social pathologies such 
as alcoholism and other behavioral diseases, violence and high 
suicide rates. Many reservations are really unhappy places and 
the quality of life is really very low.
    My personal idea to solve that is to enhance our education, 
our educational opportunities, our educational quality. But 
then we also have to bring an economy to the reservations. 
Because if you do not, if somebody gets a good education they 
just move away. And in large measure, that is what has happened 
a lot of times in the past. So we have to bring in economy to 
the reservations.
    I was privileged to serve on President Reagan's Commission 
on Indian Reservation Economies in 1983-84. The finding we had 
about Indian reservation economies is there was not any. It was 
just kind of an economic black hole. That has improved in 
anumber of places and gaming has had a very positive influence on that.
    Mr. Dicks. On some.

                             INDIAN GAMING

    Mr. McCaleb. On some. And some tribes have moved ahead 
economically without the gaming activity. But it is a way to 
get a quick influx of other people's money and it has operated 
very well for tribes. You can see the numbers are beginning to 
be affected by gaming. Obviously, it does not work where there 
is no market. Just like any enterprise, it does not do too much 
good to open a big fancy casino in the middle of the Great 
Plains where there is no population density, and some tribes 
have tried that, not very successfully. But when you can open 
one in Connecticut or upstate New York or----
    Mr. Dicks. On I-5.
    Mr. McCaleb. Close to population densities, those have a 
pretty high degree of success and a high rate of return. And 
this Administration is not discouraging that because the law 
provides for that. That is an opportunity that is out there.
    But I believe and the tribes believe that we have to have a 
broader base of economic emergence than just gaming. Because we 
are seeing the proliferation of gaming activities not only 
among tribes, but States are getting into the gaming business 
in a variety of ways in order to develop the revenue, just the 
way the tribes are. Right now, that is a pretty nifty little 
market niche because there are not many people doing it. When I 
was a youngster there were basically two places that you could 
go to gamble legally, one was in Nevada and the other was 
Atlantic City. Now there are I think 30-some-odd States in 
which gaming is legal.
    The point I am making is tribes see this as a diminishing 
return market, and I think rightly so. So they are trying to 
make their money while they can to reinvest in other activities 
and expand their economic base. And that is my priority, 
Congressman. That is what the Bureau should be assisting them 
to do in the long term and our trust responsibility should be 
assisting the tribes in those activities so that they become 
self-sustaining, self-sufficient with dignity and with an 
expectation that there is an opportunity for employment in 
their neighborhoods when their kids become an employable age.

                             SCHOOL BONDING

    Mr. Dicks. Mr. Chairman, I know I said this was the last 
question, but in this article ``No Child Left Behind: Come to 
Indian Country,'' I am sure you saw this in The Washington 
Post.
    Mr. McCaleb. Yes. I wrote a response to it, as a matter of 
fact.
    Mr. Dicks. I would love to see it. But one thing that it 
said there, just to get your response, and this will be my last 
question, ``They have put forward an idea that now has 
bipartisan support on Capitol Hill--the tribal school bonding 
initiative. Indian school bond authority utilizing modest 
direct spending today with tax credits to bond holders the next 
15 years would provide a huge wave of school construction 
activity next year.'' Have you looked at this program?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. McCaleb. Oh, yes. I support the idea of advanced 
funding for schools. I am not sure that it would create a huge 
wave of funding this next year. You are somewhat limited by the 
ability of the bureaucracy to process this. We have already 
tripled our rate of construction and I am amazed the Bureau has 
done as good a job as they have. I do not claim any credit for 
that. I was not around when they built up that infrastructure. 
But we have jumped from a $60 million a year construction 
program to a $300 million a year construction program, and that 
is usually the formula for abuse if not outright scandal. That 
has not happened and we have privatized almost all of that 
activity. All that said, I support the bonding program.
    Mr. Dicks. Is bonding and advanced procurement the same 
thing?
    Mr. McCaleb. Yes, I think it is essentially. I mean, you 
are borrowing other people's money against your ability to pay 
that off in the future. I did this as the Secretary of 
Transportation in the State of Oklahoma with a State that had 
adebt limitation constitutional provision. And we did it by what we 
called lease appropriation. I was surprised that the bond market would 
buy the bonds, but they did.
    What it does is it says we are not going to pledge the full 
faith and credit of the State, but we want to borrow umpty-
umpty million dollars for the purpose of building highways and 
the legislature expresses their intent to pay back those bonds 
as the monies become available. Which is really a promise to 
pay if times are good. And I am amazed that those bonds sell as 
well as they do. We sold over a billion dollars worth of those 
bonds in the State of Oklahoma when I was there, we built a lot 
of roads, and the legislature is paying them back. And that is 
kind of what this advanced funding program is. It does not 
pledge the full faith and credit of the tribes or of the United 
States Government.
    Mr. Dicks. Thank you very much.
    Mr. Skeen. We are done.
    [Questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                         TRUST REFORM OVERSIGHT

                               WITNESSES

J. STEVEN GRILES, DEPUTY SECRETARY OF THE INTERIOR
THOMAS N. SLONAKER, SPECIAL TRUSTEE FOR AMERICAN INDIANS
NEAL A. McCALEB, ASSISTANT SECRETARY, INDIAN AFFAIRS
ROSS O. SWIMMER, DIRECTOR, OFFICE OF INDIAN TRUST TRANSITION

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Today we have two hearings. First, we will hear 
from the Department on its ongoing effort to reform the Indian 
Trust systems, to be followed by the Bureau of Indian Affairs 
2003 budget hearing.
    The oversight hearing is to review the Department's effort 
at addressing the difficult issues of trust reform. Today we 
welcome Steven Griles, Deputy Secretary of the Interior, who 
will detail the ongoing trust reform efforts at the Department 
of the Interior.
    Secretary Griles, as you know, this Subcommittee has been 
very supportive of the Department's efforts to fix the broken 
trust fund system. In fact, we have provided every dollar you 
have requested. However, the Subcommittee needs to be assured 
that there is some light at the end of the tunnel. I wondered 
what they were looking for. [Laughter.]
    We want to see that at the end of the day there will be a 
solution to this messy problem.
    I see that with you today are the policy officials who have 
responsibility for the trust reform at the Department. Would 
you please introduce these gentlemen to the Subcommittee.

                       Introduction of Witnesses

    Mr. Griles. Good morning, Mr. Chairman. It is a pleasure to 
be here.
    Mr. Skeen. Good morning once the fog lifted.
    Mr. Griles. It has lifted out there.
    Mr. Skeen. Good. We once again beat the system.
    Mr. Griles. We appreciate the opportunity to come up and 
talk to you about trust reform and where we are. With me today 
I have Tom Slonaker, on my right, who is the Special Trustee, I 
have Ross Swimmer, who is the Director of the Office of Trust 
Transition, and I have Wayne Smith, who is a Deputy Assistant 
Secretary for Indian Affairs. Behind me, I have several other 
individuals. Jim Cason, who is the Associate Deputy Secretary, 
Burt Edwards, who is in charge of the Office of Historical 
Trust Accounting, and his deputy, Jeff Zippen, Jim McDivitt, 
who is a Deputy Assistant Secretary for Indian Affairs, and 
Tommy Thompson, who is a Deputy Special Trustee.
    So we have all the policy folks here with us, Mr. Chairman.
    Mr. Skeen. Thank you.
    Mr. Dicks?

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman. I want to join with the 
Chairman in welcoming our witnesses this morning. Today, we 
have the Department's full team to help us understand the 
budget situation with respect to trust reform as well as for 
the Bureau of Indian Affairs operating programs generally. This 
is a difficult job and I think everyone on thisSubcommittee 
appreciates the very hard work which these public servants provide to 
this country and, in particular, to the Indian people.
    We also appreciate the challenges which are faced in Indian 
Country in terms of education, law enforcement, health care, 
housing, a whole multitude of issues. And we look forward to 
working with the Secretary to address these challenges.
    At the outset of this hearing, however, I have to say that 
I believe that there is a disconnect between the amount of time 
and resources being allocated to the trust reform issue versus 
getting critical services to Indian people. I believe the trust 
reform is a top priority, but I am frustrated that we are 
reviewing a fiscal year 2003 budget which includes a 44 percent 
increase for trust reform, and a 2 percent increase for 
education, social services, law enforcement, and resource 
management programs which serve the tribes.
    I do not say this to be critical of our witnesses. The 
Committee is in this together with the Department and the 
President to try to deal with these problems. But I do hope we 
can move beyond law suits very soon and concentrate on getting 
services to the tribes. And maybe the only way that can be done 
is to somehow try to seek a settlement of this issue. I think 
instead of spending all this money on litigation and trying to 
resolve this via law suit, we need to think about a settlement.
    Thank you, Mr. Chairman.
    Mr. Skeen. Thank you.
    Mr. Griles, if you would be kind enough to summarize your 
statement. Your full statement will be made a part of the 
record. In addition, any statements from your supporting 
witnesses will also be included in the record.

                    Opening Statement of Mr. Griles

    Mr. Griles. Mr. Chairman, thank you. I will just quickly 
summarize. I have introduced to you the key departmental policy 
officials who are with me today and they will be available to 
respond to any questions also for you, Mr. Chairman.
    I want to highlight for you the recent trust reform 
activities the Department has been engaged in. The budget 
reflects an effort that we are trying to move forward to 
address a lot of these key issues.
    As you know, the Secretary announced an outline for the 
reorganization and consolidation of the Indian trust management 
functions. The goal of that proposal is to provide an improved 
management of trust assets by creating clear lines of authority 
for trust reform and trust operations. Our expert, independent 
contractor, Electronic Data Systems, reported that one of the 
fundamental barriers to reform is the complete disorganization 
and scattering throughout the Department of Interior and a 
number of Bureaus, as well as within BIA, the issue of trust 
fund management.
    We do not have in place a management structure that 
centralizes these functions and provides the focus it ought to 
have. Different people in different agencies were doing 
different things, all in the name of trust asset management, 
but not with the kind of results that I believe you want to see 
and that we want to see.
    The goal of our proposal is to put in place a structure 
that ensures better performance. We established a Tribal Task 
Force, composed of 24 tribal representatives. We are working 
very closely with the Task Force to look at alternatives to our 
suggested proposed reorganization. I met last Thursday, Friday, 
and Saturday with the 24 representatives and their alternates 
in Phoenix.
    Tremendous progress has been made in getting a process in 
place, Mr. Chairman, to move forward. EDS is under contract to 
help us develop business practices modeling for trust reform, 
reflecting the kind of commercial trust practices that the 
private institutions use.
    To address the issue of historical accounting, the 
Secretary last June established the Office of Historical Trust 
Accounting. We submitted a blueprint for a comprehensive plan 
which is being developed, and it is our intent to have that 
plan submitted to you later this year. It is my hope it will be 
submitted by mid-June. We are looking at trying to expedite 
that and get it to you.
    This is a difficult task and it includes the recent 
concerns identified with the Department's information 
technology security measures related to Indian trust. As you 
know, our computer systems have been disconnected from the 
Internet and we are working every day with a Special Master of 
the court to obtain approval to reconnect to the Internet.
    This shut down has prevented us from making important 
payments to Indian people and to the States. We began making 
the first payments in late February to those hard-pressed 
individuals based on estimated amounts that we assumed were in 
the accounts. We did that with the States as well as the 
tribes. We will make another estimated payment by March 25th or 
earlier, depending upon how the systems work over the next few 
days.
    For the long term, though, we have concluded, Mr. Chairman, 
we need a dedicated computer network to ensure that the trust 
data is, in fact, secure. We briefed the Subcommittee and other 
Members on February 13, and other Members, and we have 
submitted a request to you to reprogram certain funds to go 
forward with the establishment of this dedicated network to 
secure the trust data.
    The fiscal year 2003 budget request is based on the current 
organizational structure and it does not reflect our 
conclusions about the need for this new network, the new 
organization, and other adjustments that may be appropriate. As 
we look at them and figure out the answers we would like to 
bring that to you.
    Now, as we complete the consultation process with the 
tribal governments and we move forward and we come to some 
conclusions, we will submit to you a crosswalk. If we decide to 
reorganize, that reorganization crosswalks from the existing 
budget that we submitted to you to the new budget of how we 
think it ought to be. We will do that as soon as we can, Mr. 
Chairman. The budget does include significant new resources to 
address long overdue changes that we need to make. It contains 
a proposed $84 million increase. That is the largest increase 
in history in Indian trust. It is needed.
    I could not agree more with Mr. Dicks about the need to 
move on. Law suits and the continuing contentious nature of 
this program makes it very difficult for this policy team to 
focus on getting the job done. We would like to get that 
resolved. We are not in a position today to suggest a 
settlement that we believe has a foundation for what would be 
an appropriate level. We are working to get there. It is my 
hope that we will get there very soon with some understanding 
of how to maybe suggest that theGovernment and the plaintiffs 
can reach some agreement.
    I just want to thank the members of the Subcommittee for 
your efforts, for your staff's efforts. They have been quite 
helpful. We appreciate the advice and the support you have 
given us and we look forward to working with you to improve the 
trust asset responsibilities the Department has.
    Thank you, Mr. Chairman.
    [The written statements follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                       CHALLENGES TO TRUST REFORM

    Mr. Skeen. I am pleased at the progress that you are making 
with this thing. What do you see as the biggest problems or 
challenges to trust reform?
    Mr. Griles. I think the biggest challenges we face at this 
point are the things that we are trying to address right now, 
and that is how do we establish an organization that can be 
dedicated to protecting the trust assets of the tribal 
governments as well as the individuals? How do we make sure 
that our employees who are out there are doing what they need 
to do as a trustee?
    Heretofore, Mr. Chairman, this program was operated as a 
normal government program. It really was not operated as a 
trust. And with the changes that have occurred with the 1994 
statute and our efforts, we are moving this program to a trust 
management program and not just simple delivery of services 
that has historically been the way the BIA dealt with it. That, 
I think, is one of the key things. The second is how do we get 
the lawsuit resolved so that we can all work together to make 
the improvements necessary.
    Retaining, hiring, and getting good people to come into 
this program that is in such contention is very difficult. We 
need to get some things resolved so our best and brightest are 
willing to step into these areas and work to assure trust 
reform can be implemented.

                           TRUST IMPROVEMENTS

    Mr. Skeen. Based on press reports, it seems that nothing is 
working in terms of trust management. Is this the case? And if 
not, can you tell us about the things that have resulted in 
improvements in the management of Indian trust resources.
    Mr. Griles. Mr. Chairman, I think that you should get a 
good answer to that. I would like to ask Mr. Slonaker, who is 
the Special Trustee, if he could respond to you regarding some 
of the accomplishments that have occurred.
    Mr. Skeen. We would like to hear that.
    Mr. Slonaker. Thanks, Steve. There have been certainly 
positive things which have occurred. The system that tracks the 
individual and tribal accounts, for example, in Albuquerque, we 
refer to it as the Trust Funds Accounting System, or TFAS, has 
been up and running now for nearly two years. So that is one 
thing that is working. Remember, that is the other half of the 
grapefruit from the total trust operations. The missing half is 
basically what we have been referring to as the TAAMS systems 
which actually tracks all the leasing income, the accounts 
receivable, title, and that sort of thing. So one fits with the 
other. Nevertheless, we have been able to print statements. So 
that part of the accounting system has been working pretty well 
for some time.
    I think another major effort that has been made is in the 
records area, in trust records which is a difficult issue. But 
we have a comprehensive program to deal with the trust records 
and that is ongoing.
    I think the other thing is the fact that we have now got 
EDS involved in assessing the progress and where we have 
insufficiencies. That, I think, has been a major step up. I 
think in terms of creating a risk management group to prepare 
to assess the whole trust function to make certain it is 
working properly as it is changed and improved is another one.
    So those are just some that I would like to share with you.
    Mr. Skeen. It is really complex. And the way that we have 
been working on it with you folks correcting it, we appreciate 
that. You have given us a lot of opportunity to help you 
improve the system.
    Mr. Dicks?

                        CHANGES IN TRUST REFORM

    Mr. Dicks. Mr. Slonaker, your statement as Special Trustee 
is helpful in that it makes many quite specific 
recommendations. But for me the most important statement in all 
of the witnesses' written testimony is your more general 
comment, and I quote, ``Trust reform has reached a point where 
radical measures need to be taken now.'' Could you tell us what 
you have in mind?
    Mr. Slonaker. I think the Secretary has already proposed a 
change, Mr. Dicks, which I have concurred with. There is a need 
to bring the trust organization into a single organization 
dedicated to delivering trust services. Now some people have 
suggested this ought to be outside the Department, some people 
have suggested it ought to be inside the Department as a single 
unit, some people have suggested it ought to be some kind of 
bifurcation of BIA so that you have separate lines of control 
depending on whether it is trust or whether it is other matters 
relating to the BIA. There are ways to do this. But I think the 
single most important thing is to get accountability up and 
down the line and to get good experienced management in charge 
of it. Not only are those important needs, but those are better 
set in a single organization.
    Mr. Dicks. And we are talking here about 300,000 individual 
accounts?
    Mr. Slonaker. Nearly.
    Mr. Dicks. And a thousand tribal accounts?
    Mr. Slonaker. Over that.
    Mr. Dicks. Over that?
    Mr. Slonaker. Yes.
    Mr. Dicks. Is that it? Is that the sum total of the 
problem?
    Mr. Slonaker. Well, those are the accounts that belong to 
the beneficiaries that the trust is designed to serve.
    Mr. Dicks. Right. Now are we okay going forward? Do we have 
a system in place so that we can distribute the money? Iknow we 
are caught up in this law suit, which is not very helpful, by the way, 
letting the Special Master stop you from using the Internet. I hope you 
can work that out. And I understand that has affected your ability to 
make payments to the tribes and to these individuals. Is that correct?

                       PAYMENTS TO BENEFICIARIES

    Mr. Griles. Yes, Mr. Dicks, it has been. We are working 
every day with the Special Master in an attempt to address the 
particular concerns. Right now, a little over 70 percent of the 
Department is reconnected to the Internet. But that part of the 
Department that is not, particularly the Minerals Management 
Service where all of the revenues from the oil and gas leases 
and coal leases and that kind of thing get distributed to the 
individual Indian allottee or the tribe, that is not connected. 
And so, until we get the Special Master to----
    Mr. Dicks. So we are not in good shape in terms of going 
forward then.
    Mr. Griles. We are not in good shape in terms of making 
distribution of the monies until the Special Master authorizes 
us to reconnect to the Internet.
    Mr. Dicks. Do we know what money is owed to these 300,000 
individuals and over 1,000 tribes? Do we have the revenue now 
going forward? Do we know the specifics?
    Mr. Slonaker. Yes.
    Mr. Dicks. So we are okay in that respect?
    Mr. Slonaker. Yes. We get information on the lease 
payments. The problem at this point is because of the shutdown 
of our access to the Internet, we cannot always identify it 
specifically to the account, to the beneficiary. But we do get 
the dollars. So what we did February 21st, for example, was to 
make some estimated payments which will have to be reconciled 
eventually. And we will have to do more of that until, of 
course, the MMS system comes up and can tell us all the 
pertinent information.

                          TRUST REORGANIZATION

    Mr. Dicks. And your proposal is to set up a new entity 
either within or without the Department of Interior to manage 
this single problem?
    Mr. Slonaker. To manage trusts, yes. And that was the 
Secretary's proposal to do it within DOI, to set up a single 
free-standing unit to administer trust.
    Mr. Dicks. Does that require legislation?
    Mr. Slonaker. I do not believe so.
    Mr. Dicks. So she could do this on her own?
    Mr. Griles. Yes.
    Mr. Dicks. We have approved the reprogramming letter in 
order to do that. Is that correct.
    Mr. Griles. That is correct.
    Mr. Dicks. Is she going to do it? I mean, are we going down 
that path?
    Mr. Griles. Where we are, Mr. Dicks, is that we had 
submitted a pretty large reprogramming letter to the Committee. 
And after consultation with your staff and others as well as 
the Senate, the reprogramming is on hold pending the 
reorganization decision. The Secretary made a proposal but----
    Mr. Dicks. It has been controversial, that is right.
    Mr. Griles. Controversial, that is the understatement. We 
have been in intense consultation, Mr. Dicks, with the tribal 
governments. But I have to tell you that the meeting we had in 
Phoenix on Thursday, Friday, and Saturday, in my opinion, we 
made significant progress to get us to where we could all walk 
together to define the mission and objectives and then the 
final organization that can carry out trust reform.

                         HISTORICAL ACCOUNTING

    Mr. Dicks. So, we have got problems going forward. We are 
trying to do the reorganization. But let's talk about going 
backwards now. I understand from the briefing we had that the 
information is, the further back we go, the less accurate is 
the information. Is that correct?
    Mr. Slonaker. I believe that is correct. I do not have any 
solid basis to say that. But I----
    Mr. Dicks. You are not involved in the----
    Mr. Slonaker. Historical accounting?
    Mr. Dicks. Yes.
    Mr. Slonaker. No.
    Mr. Dicks. Who does the historical accounting?
    Mr. Griles. We have the Office of Historical Accounting 
people here. Mr. Swimmer has taken responsibility. At least I 
convinced him to do that, last week. But on a day-to-day 
basis----
    Mr. Dicks. Lost your senses, Mr. Swimmer? I thought you 
were a very smart guy.
    Mr. Swimmer. I did that about three months ago. [Laughter.]
    Mr. Griles. But, Mr. Dicks, Burt Edwards is here and his 
deputy, Jeff Zippen, they are the two individuals who on a day-
to-day basis are developing the plan.
    Mr. Dicks. All right. Where are we on the historical 
accounting?
    Mr. Swimmer. Well, at this point, we are doing just what 
Steve said. We are developing a plan based on an earlier 
blueprint to conduct an historical accounting that literally 
would go back from whatever date we choose, which is probably 
the end of the last fiscal year, to the original allotment, 
which could be a hundred years, to examine the records and 
determine whether the monies that were received for certain 
transactions--leases, sales, whatever--were properly deposited 
and paid out to the individual beneficiaries. That, obviously, 
is a massive undertaking.
    One of the methods that they are using to do that is 
starting with very large accounts that are more contemporary to 
develop a basis for----
    Mr. Dicks. Now who is doing this again?
    Mr. Swimmer. The Office of Historical Trust Accounting. Mr. 
Edwards, right behind me, is the person that is actually 
organizing this and they are hiring quite a few contractors to 
help with this. It is a very, very complex and extensive 
operation to do that. We are talking literally hundreds of 
thousands of accounts that would contain millions of records 
that go back potentially to 1887.
    Mr. Dicks. Can it be done?
    Mr. Edwards. We have five projects underway. We have 
actually completed a number of judgment accounts which are 
relatively simple. As Mr. Swimmer said, we are taking on, I 
guess you would call it the ``low hanging fruit.'' Recent 
accounts are underway. Large million dollar accounts are 
underway, the Agua Caliente tribal group which has realty 
leases out in Palm Springs, California. But we have 8,000 
accounts.
    Yesterday, we received the review of a second consulting 
firm. One firm did the reconciliation, another firm has done a 
quality assurance review of that. We are going to turn that 
over tomorrow or Monday to our legal advisors to see----
    Mr. Dicks. How far does that go back?
    Mr. Edwards. Those go back. Most of these 8,000 accounts 
are principally for minors, some of them couldbe mentally 
incompetent or incarcerated Indians, but most are minors. And what they 
are are an initial let's say $5,000. Through a tribal judgement on a 
land claim, they come to minors, the money stays in their account until 
they reach the tribal designation of majority. So these 8,000 accounts 
of the roughly 265,000 active accounts in 9 groups all have essentially 
the same balance, the initial deposit and the monthly accruals of 
interest through that time. So that project is done. We will probably 
take on another several groups of judgements.
    The other projects are underway. The Eastern region, which 
is a small region, the Agua Caliente's large dollars in recent 
times, the million dollar accounts, and projects like that.
    And the purpose of this is to inform us so that the 
comprehensive plan is based on some hard core experience of 
actual reconciliation. So, before the June date that Secretary 
Griles mentioned, we will actually deliver some historical 
accountings to the beneficiaries.

              COMPREHENSIVE PLAN FOR HISTORICAL ACCOUNTING

    Mr. Dicks. Okay. Congress, as you know, has directed the 
Department to provide a comprehensive plan for reconciling 
these accounts which includes the cost and benefits for such a 
plan prior to its adoption by the Department. What is the 
status of this effort?
    Mr. Griles. Well that effort is the planning effort that we 
are going to do.
    Mr. Dicks. That we were just talking about?
    Mr. Griles. Yes.
    Mr. Edwards. The pilot projects----
    Mr. Griles. Will feed into the plan.
    Mr. Edwards. We are sort of getting our hands in the dirt 
to develop that plan. Actually, we have a progress meeting 
tomorrow morning with Secretary Griles and Associate Deputy 
Secretary Jim Cason and Mr. Swimmer to start talking about some 
of the key decisions which have to be made by the Secretary as 
part of that comprehensive plan.

                ESTIMATED COST OF HISTORICAL ACCOUNTING

    Mr. Dicks. The Committee understands that the transaction-
by-transaction accounting could cost as much as $600 million. 
Where would you propose to get the resources for such an 
accounting?
    Mr. Griles. Mr. Dicks, the answer is I wish I knew that it 
was only going to cost $600 million. I do not know what the 
final number is. We will hopefully have a better understanding 
of what the cost will be by the June timetable. Once we have a 
plan, it will be up to you, this Committee, to look at whether 
or not (1) the plan is sufficient, and (2) whether you are 
willing to fund it.
    Mr. Dicks. We would have to have a request from the 
President.
    Mr. Griles. Absolutely. You are exactly right. This will be 
a very tough budget request. It is a lot of money that is going 
to be required here.
    Mr. Dicks. Now we are told that the court may require you 
to do a transaction-by-transaction analysis.
    Mr. Griles. That is correct. The court has entered an order 
that dictates that we are to do a reconciliation of the 
accounts. It is going to be quite costly, quite lengthy, and it 
will take a lot of resources.
    Mr. Dicks. Is there any way to do an estimate based on--you 
do a certain number of these, can you then do an estimate of 
what this thing will cost in terms of your plan?
    Mr. Swimmer. That is the plan. We work down from these very 
high level large accounts, of which there may be fewer than 
100,000. It is kind of an 80-20, a lot of large dollars are 
going through the system with few people. Once we get that part 
done, we get an idea of what the cost is for that, then we will 
do sampling of the smaller accounts. But when you get into 
smaller accounts, we are talking about hundreds of thousands of 
accounts that may have run $1, $5, $50 through for years.

                        POTENTIAL FOR SETTLEMENT

    Mr. Dicks. Is there any way to offer these people a 
settlement to get the numbers down? In other words, if you are 
going to spend all this money for these transactions, why not 
try to go to these people, the smaller accounts, and say we 
will settle your account today, you get a check for X, in order 
to try to get these numbers down to a more manageable 
proposition? Has anybody thought about that possibility?
    Mr. Swimmer. And at that point, it is possible I think to 
create some kind of a model. But we have to get to that point 
first.

                ESTIMATED COST OF HISTORICAL ACCOUNTING

    Mr. Dicks. Not there yet. How much have we spent on this 
effort so far?
    Mr. Swimmer. Just on historic accounting?
    Mr. Dicks. Well, just on----
    Mr. Edwards. By the end of this year, we will have spent in 
2001 and by the end of 2002 about $10.5 million. So that would 
take us through the end of this fiscal year.
    Mr. Dicks. We understand the number is closer to $20 
million on the transaction-by-transaction for the five named 
plaintiffs.
    Mr. Edwards. That is correct. That would be the total of 
the external consultant fees as well as the best we could keep 
track internally, and that was before I got here in July. The 
number of $20 million is for the initial five accounts, for 
which the judge ordered very specific accounting. That was 
completed and delivered. The information that we have is that 
the total of internal costs and consultant costs is probably in 
the $20 million range.

                           SETTLEMENT OPTIONS

    Mr. Dicks. Has anybody ever thought about a legislative 
settlement? Is there a way that Congress could help here by 
legislating a settlement?
    Mr. Griles. Mr. Dicks, the answer is yes. We welcome your 
assistance in achieving that if that is possible. We would be 
happy to try to find a way to come up with a process that would 
do that. At this point, I think we need to do a little bit more 
work. I think we will get closer to saying, okay, we know that 
X millions of dollars went through these accounts. And the 
reconciliation that Mr. Edwards is involved in will take about 
80 percent of the money and say we have shown where that money 
came in and where it has been distributed. The rest of the 
accounts maybe have 20 percent of the money. That gives you a 
much smaller number of accounts and a lot smaller number of 
dollars that you could potentially resolve and have a 
settlement on. That is our hope.

                           LITIGATION IMPACT

    Mr. Dicks. It is becoming obvious that the ongoing 
litigation is having a very serious negative impact on the 
Department's ability to hire the best and brightest to work on 
trust reform, not that all of you are not the best and 
brightest. [Laughter.]
    In trying to get additional people to volunteer. The 
plaintiffs in the case continue to file contempt motions 
against those individuals working on trust reform. The result 
is the best people are recusingthemselves from working on trust 
reform. Is the Department doing anything to protect its employees from 
these attacks, or can they do anything? Liability insurance, things of 
that nature?
    Mr. Griles. I am glad you asked that. I have expressed this 
to the judge myself directly, Mr. Dicks. Some of the very most 
knowledgeable people that we have in Interior have been alleged 
to be in contempt by the plaintiffs. That is still pending in 
Federal court. So many of them, based on their attorney's 
advice, have recused themselves from trust reform efforts. I 
personally understand that.
    In terms of the question of personal liability insurance, 
we have a limited coverage that employees can buy and the 
Government will pay half of that cost. But it is only up to 
$100,000.

                          LIABILITY INSURANCE

    Mr. Dicks. Why don't we work out something here. I think to 
get people in this, to ask them to do this, to put themselves 
financially on the line, it is ridiculous. This is an unusual 
situation and I think everybody who works on this should be 
given, that we ought to pay for, the Department ought to pay 
for complete insurance. I do not know why we cannot do that. It 
seems to me then people would feel better.
    Well, let me ask these people that are involved. Would you 
feel better if you had complete liability?
    Mr. Swimmer. Certainly would. The first thing I did was buy 
liability insurance.
    Mr. Dicks. You went out and bought your own?
    Mr. Swimmer. Yes.
    Mr. Dicks. And you are paying for it out of your own 
salary?
    Mr. Swimmer. That is correct, sir.
    Mr. Dicks. I think that is wrong. Mr. Chairman, I think we 
ought to try to figure out a way to help these people. We are 
asking them to take on this assignment and I do not see how we 
can ask them to do it and not give them adequate coverage.
    Mr. Griles. May I make a suggestion, Mr. Dicks?
    Mr. Dicks. Yes.
    Mr. Griles. We will spend a little bit of time and we need 
to assure ourselves of how we can maybe suggest that can be 
accomplished. We will have to work through our friends in OMB 
to see if we can find a way to make that work and we will get 
something back to you. We will try to do that expeditiously.
    Mr. Dicks. It has been suggested it may take you a long 
time to find friends at OMB. [Laughter.]
    Mr. Griles. Mr. Dicks, the Director of OMB is not called 
Mitch ``the Blade'' Daniels for unreasonable reasons. But we do 
have----
    Mr. Dicks. This is a unique situation.
    Mr. Griles. It is. It is.
    Mr. Dicks. And people here are being called on to get into 
a highly contentious situation that they did not create. So 
somehow it seems to me that the Congress and the Administration 
have got to give protection to these people that we pay for or 
else we are not going to get the best people to do this and it 
is going to affect the ability to get this thing done.
    Mr. Griles. We will work with you to see if we cannot come 
up with a solution, sir.
    Mr. Dicks. I would be glad to attend any meeting on this 
subject.
    Mr. Griles. We really appreciate your suggestions and we 
look forward to working with you, sir.

                OFFICIALS' TIME DEVOTED TO TRUST REFORM

    Mr. Skeen. How much time is the Secretary and her 
management team devoting to this trial and trust reform in 
general?
    Mr. Griles. Mr. Chairman, what you see here are gentlemen 
and people who are spending a huge amount of time on trust 
reform. My personal time, probably 80 percent or greater is 
spent on trust reform. Mr. Slonaker and Mr. Swimmer are 
spending 100 percent of their time on trust reform. Mr. Cason, 
who is sitting behind me, is spending 100 percent of his time. 
Well, maybe 99 percent. Of course he works 18 hour days, so we 
have to keep in mind how much time he is spending. He really 
took a great salary cut when he came. But all of these 
gentlemen are dedicating a lot of time beyond the 40 hour week 
and it is 100 percent of their time. And with the Secretary 
herself, everyday there are meetings with her to bring her up 
to speed on trust reform. So the Secretary herself is involved 
on a daily basis in trust reform, and the issues of the law 
suits and all the things associated with it.

                           COURT RECEIVERSHIP

    Mr. Skeen. The plaintiffs in the Cobell law suit have asked 
for a court-appointed receivership. How do you envision that 
this would work?
    Mr. Griles. I do not envision it working at all. We have 
opposed it in court. We think, first of all, it is 
unconstitutional. But beyond that, we do not think that is a 
solution. The beneficiaries and the tribal governments need to 
have a relationship with us. We have a government-to-government 
relationship with the tribal governments. I do not understand 
how a receiver would work.
    The receiver they are talking about is for the IIM account-
holders only, as I understand it. It is very difficult to 
separate the trust of the tribes and the trust of the 
individuals. So I just do not see how it works, Mr. Chairman.
    Mr. Skeen. Well, you have got another one about the 
welfare, the physical problem. The Indian groups' diabetes 
situation is one of the worst of any group. I know they are 
fighting it. A huge number and it is getting worse and worse. 
Thank you for letting me expound on that.

                          ERNST & YOUNG REPORT

    Mr. Dicks. The Subcommittee would like to see the Ernst & 
Young report so that this information would aid the 
Subcommittee's deliberation on the need for further 
appropriations for a reconciliation of the IIM accounts. What 
option does the Department have for releasing this information 
to the Subcommittee?
    Mr. Griles. We asked the judge to assist us and to allow us 
to release it, because it is under seal, under Federal court 
right now. The judge expressed his opinion that he could not 
and would not authorize us to release the report because it 
contains personal financial information. And as a trustee, we 
have to protect the individual's information.
    Mr. Dicks. In other situations, we have had situations 
where the Chairman and Ranking Member are briefed by the 
Department. Has that proposal been suggested to the court?
    Mr. Griles. That particular proposal has not been.
    Mr. Dicks. We did send you a letter asking just for the 
conclusions, the results, not the individual data. Have we 
taken that to the judge yet?
    Mr. Griles. I have not, Mr. Dicks.
    Mr. Dicks. Who does that?
    Mr. Griles. The answer is, I do. I tell the legal team what 
to do. And if I could, I will explain to you where we are. I 
did that the last time and to say that I got a stern rebuke 
from the court would be an understatement. It was in the 
Secretary's name that he did that. We can show you the court 
order, if you have not seen it, and it is pretty explicit. My 
suggestion to the Committee is that if you were to suggest to 
the court directly how the court could accommodate your 
request, then I think that would be one thing I could suggest. 
The court order says Congress can ask me for it. We are between 
the proverbial rock and a hard place. I understand we need to 
be responsive to you, and we will do our best.
    Mr. Dicks. We understand the situation. But it has not been 
presented to him. What was the last thing you presented to him?
    Mr. Griles. A request, a modification that we could submit 
to give you the report. We had talked about how we could redact 
from there the personal information and protect the 
individual's identity and the type of information that would be 
there, so that you would have the general conclusions of the 
report, how much money has been expended, and not provide the 
individual account data.
    Mr. Dicks. Can you comment about the report? Are you under 
a gag order?
    Mr. Griles. I think what I can do for you, Mr. Chairman, is 
instead of running that risk of violating what potentially 
would be a court concern, there is in the court some dialogue 
in the trial on the report and the nature of it and some of the 
conclusions were in the trial, which is a public document. I 
will submit to you before the close of business today a copy of 
the transcript from the trial so you will have some information 
about it.
    Mr. Dicks. That would be useful. We would appreciate that.
    Mr. Griles. I will get that up to you today, sir.
    Mr. Dicks. Do you have any objections, Mr. Chairman, on 
that?
    Mr. Skeen. Absolutely none. I would really like to see 
that.
    Mr. Dicks. Anything you can give us would be helpful. And 
the Committee will have to consider what further steps we are 
prepared to take; we can do that at a different time.
    It is my understanding, and you do not have to comment if 
you do not feel like you can, that the data raises serious 
questions about the plaintiff's claims of a $60 to $100 billion 
in historical account deficiencies. That at least is our 
understanding. Was that in the open document? Was there 
anything about that in the public record of the trial?
    Mr. Griles. I do not know specifically that that was 
discussed. I guess I would say this, Mr. Dicks, the plaintiffs, 
in their model of calculating the settlements that they have 
talked about, believe that there is a total lack of records for 
transactions and, therefore, without records, they assume that 
every dollar that was ever submitted to these accounts was not 
paid. That results in a number of $10 to $100 billion being 
what they are saying settlement ought to be. We just do not 
have enough information about our accounting right now to do 
the model of settlement. So I guess I would be better served if 
you would allow me not to respond until we can get you the 
information that the court would allow.

              COMPREHENSIVE PLAN FOR HISTORICAL ACCOUNTING

    Mr. Dicks. Right. That is fine. Just to summarize this, 
when is this plan going to be ready?
    Mr. Griles. We anticipate having it submitted to you in 
June of this year.
    Mr. Dicks. June of this year.
    Mr. Griles. Yes, sir.
    Mr. Dicks. This will be comprehensive in terms of the 
future and historical?
    Mr. Griles. It will be comprehensive in the sense that we 
will have a process put in place about how we move forward. Mr. 
Edwards laid out for you what we are doing, he called it the 
low hanging fruit. These are the very large capital accounts 
that were set up and that we have distributed large amounts of 
money from. So we are going to take this funnel, if you will, 
with the large amount of money and move it down as far as we 
can. And that is what the plan is going to show you, how we are 
going to do that and we are going to try to give you some 
indication of how much it is going to cost and how long it will 
take. That is what we intend to have submitted to you in June.
    Mr. Dicks. In this lawsuit, do you have to show records all 
the way back to 1887?
    Mr. Griles. I think that is a fundamental question you are 
asking.
    Mr. Dicks. Can they provide records? Do they have any basis 
for their accusations?
    Mr. Griles. We have not been able to communicate with the 
individual account-holders and ask that. It is one of the 
things that we think eventually is an appropriate question that 
should be asked. Once we get to the point where we have some 
accounting done, we are going to have to have any additional 
records, information that they have that could supplement what 
we have and may help us to do a better accounting. We have not 
been able to do that yet. It is my hope that we will get to 
that step soon with the court so that we can ask the court to 
allow us to do that.
    Mr. Dicks. As I said earlier, we understand the information 
as we go back gets less and less accurate or robust or how ever 
you want to characterize it, sufficient may be a better word. 
Is that accurate?
    Mr. Griles. I think that is accurate. We found over 600,000 
documents in the Department of Interior in doing the evaluation 
of the five named plaintiffs. We do not need to find that many 
documents to do the type of reconciliation that we think we can 
do and accomplish. There are going to be voids where there are 
no records and we are going to have to make some decisions at 
that point. Do we make assumptions using statistical analysis 
about that, that we would fill in and, say it is a grazing 
lease that came from the northeast or the northwest and 
normally there would be $10 a month, we could make assumptions 
about how much money should have been in that account, then we 
can look at how much was paid out. So there are things we can 
do to fill in the voids.
    But at some point, Mr. Dicks, we are going to run up 
against a blank wall where we are not going to be able to do 
that and we are going to have to have a decision by the 
Secretary and the Administration about how we deal with that, 
with the concurrence of you and probably the court. I think all 
three branches are going to have to be involved in this before 
it is over with as to how we reconcile and settle this 
question.

                       TIME FRAME FOR ACCOUNTING

    Mr. Dicks. What are the plaintiffs asking, can you 
describe, what are they asking for, in general terms?
    Mr. Griles. Well, they have asked, and the judge has 
ordered, us to do a full accounting of each individual account. 
That is what they have asked for.
    Mr. Dicks. Going back to 1877?
    Mr. Griles. To the date of the account being established. 
In some instances, that could be 1877. Are we required to go 
back to 1877? Is there a reason to go back to 1877? There may 
be in some instances where we may have to go back that far. We 
are not at that point yet, but there may be inheritance and 
things that go all the way up through there.
    Mr. Dicks. Is there a statute of limitations on this?
    Mr. Skeen. Not for Indians.
    Mr. Griles. Your question is a very legitimate question 
that we are looking at. We have pulled together an effort to 
look at what would be temporal limits, or are there any 
temporal limits. We will have those questions presented to the 
Secretary. There may be certain accounts in which you can say 
clearly there is a temporal limit on how far you need to go 
back. On others, there may not be. So for each kind of account 
or each kind of beneficiary the date may not be a statute of 
limitations. I do not think there is a legal statute of 
limitations that has been defined by the court or by you.

                        ALLEGATIONS OF CONTEMPT

    Mr. Dicks. One last question. On these contempt citations, 
why is the judge, on what basis are officials in the Department 
being held in contempt?
    Mr. Griles. At this point, Mr. Dicks, the only people that 
have been held in contempt are the previous Secretaries of 
Treasury and of the Interior. The trial has been held on 
charges against Secretary Norton and Mr. McCaleb, who will be 
here after he finishes testifying on the Senate side. He is 
over there doing his Senate budget and he will be here in a few 
minutes. They are the two named in their official capacity. But 
there are 37 individuals that have been named by the plaintiffs 
that no trial has been held, no opportunity to do that. I have 
asked the judge to please release them.
    Mr. Dicks. Do you mean to dismiss the contempt?
    Mr. Griles. Yes, sir.
    Mr. Dicks. What is the basis, substantively, what are they 
alleging? They are alleging that these people are refusing to 
do the work or provide the records? What is it that is the 
basis of these contempt citations?
    Mr. Griles. I think in each individual case there were 
allegations made, and I am not familiar with all the charges. 
First of all----
    Mr. Dicks. Just in general terms.
    Mr. Griles. That they did not carry out their duties and 
responsibilities as required by the court, or they misled the 
court in reports that were filed, or in their duties and 
responsibilities that they should have done something they did 
not do and they did not tell the court about it. Those are the 
kinds of general allegations that I think have been alleged. 
Some very good people have had contempt filed against them.
    Mr. Dicks. What happened to the previous contempt citations 
against the former Secretary of the Interior and the former 
Secretary of Treasury? Is it dismissed when they leave office 
or is it still there?
    Mr. Griles. That contempt was against those individuals in 
their official capacity. So defining a contempt resulted in a 
declaratory judgement by the judge, and I am not a lawyer and I 
am using terms that may not be the exact right terms----
    Mr. Dicks. Right.
    Mr. Griles. A declaratory judgment was entered by the judge 
indicating about 15 particular functions, activities, and tasks 
that the Department was to undertake to clear itself of 
contempt, to purge itself of contempt. So if we were to 
accomplish those breeches and activities----
    Mr. Dicks. How is the purging going? Have you purged it? 
[Laughter.]
    Mr. Skeen. Painfully.
    Mr. Griles. Painfully, as the Chairman says. That is what 
the trust reform effort is about. It is slow. We believe by 
reorganizing some of the efforts and refocusing, the one thing 
that we have to do is dedicate people to those tasks. 
Previously, we had a lot of BIA employees and Mr. Slonaker's 
employees who were doing three and four different things in the 
field. We have got to say your job is to take care of this 
particular breech or this task and not have them wear four 
other hats. It is very difficult for them to focus their 
efforts on doing this and this and this and keep the priority 
of satisfying the court order. And so one of the things in 
doing the reorganization is to have a dedicated task force to 
do that.
    Mr. Dicks. Have there been recent contempt citations?
    Mr. Griles. There has been a recent filing, maybe within 
the last 30 days.
    Mr. Dicks. Of your new team?
    Mr. Griles. Yes. There were additional filings that were 
based upon--the previous Administration had filed some motions 
with the judge on how to define the temporal limits of the 
accounting. Once we, Mr. Edwards, myself, Mr. Cason, and this 
team, we looked at that and we realized that we did not believe 
it was the appropriate thing to do and we asked the court to 
withdraw them. In asking the court to withdraw them, the 
plaintiffs filed a contempt citation saying that they should 
not have been filed in the first place in 1999, and so those 
who filed them should be held in contempt of the court.
    Mr. Dicks. That is pending.
    Mr. Griles. That is pending.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome gentlemen. 
Mr. Secretary, sorry to be late. I had a conflict in hearings. 
I appreciate your being here. I am sorry I missed your 
testimony.

                         BUDGET IMPACTS ON BIA

    I want to follow on with respect to the trust management 
reform. In your budget request, are you satisfied that the 
amount of money you requested for trust management reform will 
not impact other BIA responsibilities that you have in the 
agency?
    Mr. Griles. I think the right answer to that is that we 
have tried to balance the needs of our activities so that we 
have sufficient funds both in the trust reform effort as well 
as in the delivery of service efforts. Mr. McCaleb will be 
here, he is over testifying on the Senate side, and he is the 
Assistant Secretary, but Mr. Smith is here.
    If we did not have to do trust reform, our budget would be 
significantly smaller. Would we allocate the resources 
differently? Yes, we would. This Department is no different 
than any other Department. We will spend every dollar yougive 
us and, you know, we can always ask for more. [Laughter.]
    But we think our budget reflects an appropriate balance of 
the activities in the Department at this point.
    Mr. Nethercutt. That is important to us to make sure that 
if you need additional funds for trust management reform, we 
assume you will ask for them in that account and not negatively 
impact existing BIA functions. So I think that is the 
admonition we want to provide to you.

                         BARRIERS TO SETTLEMENT

    With respect to the court and the litigation, and I know 
there are barriers to settlement in all law suits, what do you 
perceive to be the barriers to settlement in this case? Is it 
lawyers? Is it budget restrictions? Is it greed? Is it they 
have got a good court? Maybe all of the above. But what is your 
sense of the barriers to settlement at this point?
    Mr. Griles. I think the key to the barrier to settlement is 
we do not feel at this point--well, the plaintiffs have a model 
and their model is based on the fact that they do not believe 
we have records to show that we distributed and can account for 
the receipts to each individual account-holder. If you make 
that assumption and you buy that model, all you do is say how 
many billions of dollars came in and you cannot account for it 
going out to me, therefore you owe it to me. That number is 
anywhere from $10 billion and up. On their website they say it 
is $100 billion. So that is their website posting. I will try 
to give you the facts and stay out of the subjective.
    What we are trying to accomplish at this point is to take 
the high dollar accounts, the large distributions that have 
occurred, and show that the money came in, and the money went 
out. Mr. Swimmer, before your arrival, said we are trying to 
use the 80-20 method; take 80 percent of the money, which are a 
smaller number of accounts, reconcile those, get that done and 
get that reported to the court, to the plaintiffs and see what 
distinctions and problems there are. That leaves you to a much 
smaller number, maybe a lot larger number of accounts but a lot 
smaller amount of money, and that may result in an ability to 
sit down and have rational discussions about how to settle the 
case.

               ADDITIONAL REQUIREMENTS TO ADDRESSS REFORM

    Mr. Nethercutt. With respect to reorganization, do you 
expect that there will be new employees required to carry out 
the new responsibilities that may be imposed by the court? And 
I am wondering how those new responsibilities might arise out 
of your reorganization. Have you thought through that yet?
    Mr. Griles. The answer is that this budget we have before 
you contains about an $84 million increase that the President 
has submitted. Out of that is a defined need for additional 
employees. So the answer is yes, we need more people and this 
budget reflects that.
    How does the reorganization affect that need for additional 
employees and will we identify more? If I could, let me just 
give you a quick highlight. We have employed EDS, Electronic 
Data Systems, to help us go through and look at our current 
business practices and try to help us redefine how those 
business practices can be done; how can we better, more 
efficiently do our job. And in doing that, we will also look at 
the resources that are allocated to that business practice; how 
many people we have got performing it, what are they doing, and 
do we have enough. And out of that will come a plan which would 
then have budget implications.
    I do not know that we will need more people at this point 
beyond what we have identified. That decision will be 
forthcoming in the next, I would say, eight to twelve months we 
should have a better understanding. The fiscal year 2004 budget 
will probably be the place we would be identifying and 
addressing that.
    Mr. Nethercutt. Does anybody have a different opinion?
    Mr. Slonaker. Well, the budget that we have submitted for 
fiscal year 2003 is based on the present organization and what 
our needs are, as Mr. Griles has indicated. But it is difficult 
to know at this point what it is going to have to be based on 
the reorganization effort that we have in mind.

                             ALLOTTED LANDS

    Mr. Nethercutt. Has the Department considered simply 
patenting all the allotted lands and getting out of the 
individual Indian money account business so as it might reflect 
on your employment requirements and responsibilities. Have you 
thought about that?
    Mr. Griles. Yes.
    Mr. Nethercutt. Any indication of whether it might be a 
thoughtful idea that has merit, or would you care to say?
    Mr. Griles. I do not personally think that the individual 
allottees would think that is a good idea. But that does not 
mean it is not the right idea. There are some tax consequences 
to that decision, as you may be aware, that lands that are held 
in trust are not taxed. So if we were to patent these lands to 
the individual and they were to accept the patent, then they 
would be subject to taxation. So if you decided to patent them 
and you decided that there would be no tax applied to them, 
then their concern about it may be a lot less. Maybe Mr. 
Swimmer would have other thoughts. He has been a tribal chief 
and has much more understanding of some of these issues than I 
do.
    Mr. Swimmer. When the original allotments were made and the 
law at that time, back in the early 19th century, permitted the 
allotments then to go out of trust and effectively become 
patented land. Millions of acres were lost immediately because 
of unscrupulous courts, real estate people and what have you 
and they took advantage. I think there obviously is some value 
perhaps to your suggestion if there were a way of having less 
than a full trust duty to those properties but still protect 
them in some manner as far as alienation from taxation by local 
authorities. In many cases, the land is in trust voluntarily 
because income produced is exempt also from income tax, so 
there are some large incomes generated from oil and gas 
property. So, again, if you could look at those kinds of 
issues, there may be a solution to some of it.
    Mr. Griles. I think that one other thing that is really 
important that I have learned is a lot of these allotted lands 
are within established reservation boundaries and the tribal 
governments do not want those lands to pass out of trust. They 
want them to be part of the corpus of the tribal reservation, 
particularly in the north-central part of the country where 
some of the boundaries of the reservations have a huge amount 
of allottees' lands and there are conflicts with the allottee 
and the tribal government. The tribal governments have 
expressed this very strongly to me, as recently as Saturday 
morning. We think there is a huge issue here as to the tribal 
government and the individual's rights and how that all fits 
together. So, you could have a good debate with a lot of these 
people.
    Mr. Nethercutt. It may not be as easy as it sounds.
    Mr. Griles. Yes, sir.
    Mr. Nethercutt. Mr. Chairman, that concludes my questions.
    I just would like to introduce to you, Mr. Chairman, and 
the Committee some Presidential Classroom students from 
Enchileam in my district. They are all in the back of the room 
and I want to thank them for being here. I appreciate your 
presence. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you, sir.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. I did not expect to be 
here but my Energy and Water hearing ended earlier so I wanted 
to come be with you, Mr. Chairman, and our distinguished guests 
this morning.

                      ALLEGATIONS OF MISMANAGEMENT

    I know you have obviously talked about trust reform, but 
trust reform has been around for years yet the allegations of 
mismanagement continue. Why, since we have been after this some 
time, would the mismanagement allegations still be made?
    Mr. Griles. Mr. Wamp, I will answer your question. But if I 
may, I would like to introduce Mr. Neal McCaleb, who has 
arrived. He is the Assistant Secretary for Indian Affairs. He 
was testifying on the Senate side. He has now finished that 
opportunity and so he is able to be here with you.
    Mr. Skeen. Welcome.
    Mr. Griles. Your question of the allegations of 
mismanagement on trust I think are to some degree related to 
the issue of expectations. The Department has historically 
managed its Indian trust obligations as a general program; it 
was spread out among the Bureau of Indian Affairs. On a day-to-
day basis we had employees that were doing five things 
possibly. One of the things they were doing was trying to make 
sure they were doing what a trustee should do.
    We have attempted to define what that role is, how it ought 
to be managed, and how it ought to be done. Our proposed 
reorganization is to address just that--get a workforce 
dedicated to trust so that if there are allegations of 
mismanagement and inappropriate guidance, that we have a 
structure that can be responsive.
    Today, we have employees in the field who are not and do 
not have, in many instances, the appropriate training as to 
what the job is from a trust asset viewpoint. They are doing 
the best they can. I think we have got a really dedicated 
workforce. But it is an unfair mission to put them where they 
have got five things they have got to do. So that is what the 
trust thing is about.
    Mr. Slonaker. The only thing that I would add, Mr. Wamp, is 
that, as Special Trustee, I have had a chance now to observe 
this for about 20 months. I think it is all the things that Mr. 
Griles just mentioned and I would add to that there is a lack 
of accountability, quite candidly, in many cases up and down 
the line. As I have said earlier in this hearing, there has 
been a lack of project management skills, particularly for some 
of the biggest projects, and a lack of experienced management. 
So I think all of those things really have combined.

                          TRUST ASSET SYSTEMS

    Mr. Wamp. In terms of systems, this trust asset accounting 
management system, what I have read, it seems like there has 
been a kind of a change in view of whether or not that is going 
to work. Will it work? If not, why not?
    Mr. Slonaker. Well, back in I guess it was the late spring 
I asked EDS to come in and take a look at both the data cleanup 
efforts and also the TAAMS effort that you are referring to. 
They submitted their results to us in the fall and did some 
more work on it.
    Basically, it is difficult to say right at the moment what 
happens to what we all know as TAAMS. There are two basic 
portions to TAAMS; one is called the title portion which tracks 
title, and the other is referred to as the realty portion which 
tracks lease income, leases, and the accounts receivable and 
all that sort of thing. And in the title portion, based on what 
EDS was able to tell us and what we have observed ourselves, 
there is the possibility of using the title portion of TAAMS 
ultimately as the final system. But I do not think that is the 
only alternative the Department has. I think there are other 
alternatives and that is something that has to be, and is 
being, weighed right now.
    On the realty side, it is a far more complicated picture 
and not quite even as encouraging as the title side. We are in 
the throws as a Department now of having EDS study the business 
processes out in the field to see how we can potentially unify 
those and bring them into a common system. So I think it is 
probably reasonable to say we have a long ways to go on that 
part of it.
    Mr. Wamp. You see some of the TAAMS product surviving, 
others----
    Mr. Slonaker. Possibly.
    Mr. Wamp. Others not, and new systems having to come in to 
supplement TAAMS. Almost inevitably you are going to have to 
have some new systems come in for accountability.
    Mr. Slonaker. I suspect that is a fair statement.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Skeen. Gentlemen, thank you for your testimony.
    Mr. Kingston. Mr. Chairman, I wanted to ask a few 
questions. But since I am late, if it is your preference, I 
will submit them for the record.
    Mr. Skeen. Let's buy lunch. [Laughter.]
    Mr. Kingston. Well the reason why I am late is I am having 
to Chair Agriculture because Mr. Bonilla is going to get a free 
lunch and he did not want to miss that. Somebodyis going to buy 
mine eventually.
    But do you want me to submit these?
    Mr. Skeen. If you would like to.
    Mr. Kingston. Let me just say why my concern is. What is 
the backlog in the replacement school construction program, and 
what is the backlog in the facilities improvement and repair 
program. I can submit those questions.
    Excuse me. I understand you are going to begin that hearing 
now. I am going to miss that hearing so I will submit those 
questions. I am in the wrong hearing, Mr. Chairman.
    Mr. Skeen. I will have them send in lunch.
    Mr. Kingston. This is military construction, isn't it? 
[Laughter.]
    Mr. Skeen. We will now turn to the BIA budget.
    Mr. Griles. We are going to leave and let Mr. McCaleb, who 
is your expert on the rest of this budget, proceed.
    Mr. Skeen. We have enjoyed your company today.
    Mr. Griles. It is a pleasure to be with you and your staff. 
They have been quite helpful and we appreciate it.
    [Questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Griles, J. S.....................................................    59
McCaleb, N. A.................................................... 1, 59
McDivitt, Jim....................................................     1
Slonaker, T. N...................................................    59
Smith, Wayne.....................................................     1
Swimmer, R. O....................................................    59
Trezise, John....................................................     1


                               I N D E X

                              ----------                              

                        Bureau of Indian Affairs

                                                                   Page
BAR Budget.......................................................    33
Biography of Mr. Neal McCaleb....................................    15
Budget Initiatives...............................................     8
Budget Request (FY 2003) Summary.................................     8
Concerns in Indian Country.......................................    33
Education Construction Backlog...................................    20
Education Spending...............................................    17
Endangered Species...............................................    25
FACE.............................................................    21
Forest Management................................................    23
Indian Gaming................................................28, 29, 34
Information Technology...........................................    22
Land Management Funds............................................    22
National Ironworkers Training Program............................    24
New Tribes Funding...............................................    33
Opening Remarks of Mr. Skeen.....................................     1
Opening Statement of Mr. McCaleb.................................     1
Outsourcing......................................................    21
Post-Secondary School Reductions.................................    16
Post-Secondary Schools...........................................    23
Questions for the Record:
    Construction.................................................    45
    Contract Support.............................................    51
    Economic Development.........................................    49
    Education....................................................    38
    Endangered Species...........................................    54
    Forest Management............................................    49
    General Questions............................................    35
    Law Enforcement..............................................    52
    Trust........................................................    47
    Welfare Assistance...........................................    51
Questions from Mr. Dicks.........................................    57
School Bonding...................................................    35
School Operations................................................    20
School Privatization.............................................16, 21
Tribal Recognition...............................................27, 28
Virginia Tribes..................................................    29
Welfare Assistance...............................................    24
Written Statement of Mr. Neal McCaleb............................     6
                     Indian Trust Reform Oversight
Additional Requirements to Address Reform........................    90
Allegations of Contempt..........................................    88
Allegations of Mismanagement.....................................    92
Allotted Lands...................................................    91
Barriers to Settlement...........................................    90
Biography of Mr. Steven Griles...................................    66
Biography of Mr. Thomas Slonaker.................................    76
Biography of Mr. Ross Swimmer....................................    69
Budget Impacts on BIA............................................    89
Challenges to Trust Reform.......................................    77
Changes in Trust Reform..........................................    78
Comprehensive Plan for Historical Accounting.....................81, 86
Court Receivership...............................................    84
Ernst & Young Report.............................................    85
Estimated Cost of Historical Accounting..........................81, 82
Historical Accounting............................................    80
Introduction of Witnesses........................................    59
Liability Insurance..............................................    83
Litigation Impact................................................    83
Officials' Time Devoted to Trust Reform..........................    84
Opening Remarks of:
    Mr. Skeen....................................................    59
    Mr. Dicks....................................................    60
Opening Statement of Mr. Griles..................................    60
Payments to Beneficiaries........................................    78
Potential for Settlement.........................................    82
Questions for the Record:
    Computer Shutdown............................................   130
    EDS Review...................................................   125
    General......................................................    95
    High Level Implementation Plan...............................    99
    Historical Accounting........................................   103
    Litigation...................................................   127
    Supplemental Questions for the Record........................   133
    Trust Asset Accounting Management System (TAAMS).............   100
    Trust Reorganization.........................................   126
Settlement Options...............................................    82
Time Frame for Accounting........................................    87
Trust Asset Systems..............................................    93
Trust Improvements...............................................    77
Trust Reorganization.............................................    79
Written Statement of Mr. Steven Griles...........................    63
Written Statement of Mr. Thomas Slonaker.........................    70
Written Statement of Mr. Ross Swimmer............................    67
                         Indian Health Services
Questions for the Record.........................................   137
    Allegations of Malpractice...................................   139
    Construction Priority List...................................   153
    Contract Health Services.....................................   150
    Equipment....................................................   152
    Fixed Costs..................................................   157
    Health Professional Shortages................................   143
    Hospital and Clinic Construction.............................   156
    Indian Health Care Improvement Fund..........................   137
    Indian Health Facilities Maintenance.........................   151
    Joint Ventures...............................................   158
    Modular Dental Units.........................................   159
    Pharmacist Interns...........................................   142
    Podiatry Program.............................................   149
    Sanitation, Water, and Sewer Facilities......................   152
    Self-Determination Contracts and Self-Governance Compacts....   150
    Small Ambulatory Program.....................................   154
    Staff Quarters Construction..................................   155
    Volunteer Dentist............................................   141
Health Care Facilities Construction (FY 2003) Funding Status.....   198
Health Facilities Construction Program Status Report.............   197
Sanitation Deficiency System Priority List.......................   162
              Office of Navajo and Hopi Indian Relocation
Questions for the Record.........................................   199
Editor's note.--The following three answers to IHS questions were 
  submitted late, and are included as corrections to original 
  answers........................................................   204

                                <greek-d>


</pre></body></html>
